No. 20-765

In the
Supreme Court of the United States
M.S. WILLMAN,
Petitioner,
v.
ATTORNEY GENERAL OF THE
UNITED STATES OF AMERICA,
Respondent.
On Petition For A Writ Of Certiorari
To The United States Court Of Appeals
For The Sixth Circuit
PETITION FOR REHEARING
DANIEL C. WILLMAN (P55867)
P.O. 606
Pinckney, MI 48169
(248)-231-0705
Attorney for Petitioner

1
Per U.S. Supreme Court rule 44 (2) Petitioner
presents the following arguments for Rehearing, which
are intervening circumstances of a substantial and
controlling effect, and which were not previously
presented by Petitioner.
STATEMENT OF FACTS
On August 13, 2020 Respondent the Attorney
General of the United States published for discussion
(1a) “Registration Requirements Under the Sex
Offender Registration and Notification Act A Proposed
Rule by the Justice Department”1 (commonly referred
to as SORNA).
These proposed rules were submitted by
Respondent after the close of briefing in this matter
when this case was before the U.S. Sixth Circuit Court
of Appeals (EFC-50) and were not considered by the
Court.
The proposed rules (reproduced in pertinent part
in the attached appendix) are now well past the open
comment date, are ripe for presentation and fall within
the purview of Supreme Court rule 44 (2).
Respondent claims the proposed rule in question
(3a) would bring clarity, not a new policy change, to
SORNA (1a). The proposed clarifying rule states in
part that2 “all sex offenders must comply with all
1

https://www.federalregister.gov/documents/2020/08/13/2020-158
04/registration-requirements-under-the-sex-offender-registratio
n-and-notification-act
2

Citing to the dissent in Reynolds v. United States, 565 U.S. 432,
442-45 (2012); id. at 448-49 & n. for support. Respondent also
contends the rule is a constitutionally permissible delegation of
authority as intended by Congress (2a).

2
requirements of SORNA.”
While SORNA is applicable to pre-act offenders
it is also an accepted fact3 that under SORNA it was
envisioned that, at some point, some offenders could
and would be removed from registries.
The proposed clarifying rule also notes that
under 18 U.S.C. § 2250 (c) there exists a valid
affirmative defense for offenders not to register, due to
circumstances beyond their control. The Sixth Circuit
Opinion noted this affirmative defense under §2250 (c),
holding it could be invoked if a State refused to register
an offender who was lawfully removed from a registry
as was Petitioner. The Court further noted after that,
there would be “nothing else to do” under SORNA
unless there was a relevant change in circumstances
(7a of Petition).4
For the reasoning within, it is the position of
Petitioner that a Stipulation in Federal or State Court
allowing for removal of offenders from a State registry
on a limited, narrowly defined, individual basis falls
within the affirmative defense provision of 18 U.S.C. §
2250 (c) and should be recognized as a permanent
affirmative defense.
Petitioner also sets forth a second issue for equal
consideration infra.

3

If this were not so, there would not be a SORNA section
acknowledging that offenders can be removed from registries.
Tellabs, v. Makor, 551 U.S. 308, 322 (2007), Judicial Notice.
4

It is assumed the Court meant change of residence, school or work
to another jurisdiction, since the Court noted permission to travel
was not required. Citing Nichols v. United States, 136 S. Ct. 1113,
1119 (2016) (11a Petition) and United States v. Benevento, 633 F.
Supp. 2d 1170, 1210 (D. Nev. 2009) (12a Petition).

3
I.

REMOVAL FROM AN OFFENDER
REGISTRY IN FEDERAL OR STATE
COURT SHOULD BE RECOGNIZED
AS A PERMANENT, NARROWLY
APPLIED AFFIRMATIVE DEFENSE
UNDER 18 U.S.C. §2250 (c).

The August 13, 2020 proposed clarifying rule
omits any discussion as to what would be the status of
offenders legally removed from a State registry, even
though it is clear Congress expected and intended that
some offenders would be permanently removed from
registries, supra.
As the proposed clarifying rule notes,
“[R]egistration is by its nature a two-party transaction”
(2a). An offender provides information that a
jurisdiction accepts for inclusion in their offender
registry. If during this reciprocal process the
jurisdiction is unwilling to carry out the
transaction, then the offender cannot register
(2a).
In the proposed rule at hand, Respondent noted
the desire that the effect of the proposed rule (3a):
will resolve specific problems that have
arisen in past litigation or can be
expected to arise in future litigation if not
clarified and resolved by this rule,
thereby avoiding the expenditure of
litigation resources on these matters.
The proposed rule also notes the intent that the
process for registering jurisdictions will not be made
more time-consuming or expensive (3a), yet in rare
circumstances such as the case at hand (where it has
been decided in a judicial setting that a registrant no

4
longer must register) the controlling effect of the rule
would lead to the realistic certainty of substantial time
consuming and expensive protracted5 litigation.
The exact same sentiment (as noted above) was
put forth in the Stipulation between the State of
Michigan and Petitioner in his case (4a):
. . . considering the undisputed facts
underlying Plaintiff’s claims, the parties
wish to avoid further litigation and
expense and consent to entry of this
order (5a).
The Stipulation and Order went on to note that
the 25-year duration of the registration statutes
applicable to Petitioner had ended, and he was no
longer subject to any State of Michigan registration or
verification requirements.
Recognizing this limited, narrowly tailored,
requested exception would not create ‘loopholes and
deficiencies' (United States v. Kebodeaux, 570 U.S. 387,
399 (2013)) indeed it is extremely limited in scope and
could only occur via court order. As noted above it is
consistent with the intent of Congress that some
offenders would be completely removed from
registries.
Alternatively, if an offender is in fact required to
register under SORNA but not required to be on a
State registry, can they be held liable for a §2250
violation if they do not register under SORNA and if
5

The Does v. Snyder, 834 F.3d 696 6th Cir. 2016), cert. denied, 138
S. Ct. 55 (2017) case which struck down part of the Michigan
SORA offender registry went on for years and cost the State of
Michigan millions, not to mention the cost to the Plaintiffs.

5
they do not leave the jurisdiction in which they reside?
Deciding the application of these proposed rules
in the extremely limited, narrowly defined context
requested would in effect eliminate a substantial
amount of future protracted litigation in every U.S.
Circuit.
II.

THE
PROPOSED
CLARIFYING
RULE OMITS & ELIMINATES A
CRUCIAL ELEM EN TAL STEP
RECOGNIZED IN AN 18 U.S.C. §2250
VIOLATION, A STEP THIS COURT
HAS NOTED O N M U LTIPLE
OCCASIONS.

As noted above, Respondent stated in the
proposed clarifying rule, “[t]his rule does not make new
policy,” yet the proposed rule omits without discussion
and eliminates one crucial element in regard to finding
criminal liability under § 2250.
According to the proposed clarifying rule, only
two steps, not three (as noted in (Carr v. U.S. 560
U.S. 438, 446 (2010)) are needed to find criminal
liability under §2250. The proposed rule states :
SORNA's criminal provision, 18 U.S.C.
2250 . . . makes it a Federal crime for a
person required to register by SORNA to
knowingly fail to register or update a
registration as required by SORNA under
circumstances supporting Federal
jurisdiction, such as conviction of a
Federal sex offense or interstate or
foreign travel (2a).
The missing step noted above is the
element of intent, that an offender would

6
knowingly fail to update their required state
registration seeking to ‘evade a State’s reach’ (not
the reach of the Federal Government). Furthermore,
the three steps must occur in sequential6 order.
The main problem with the above proposed rule
is that, while it states it does not make new policy, its
intervening effect substantially alters §2250 and
existing precedent of this Court, which will lead to
needless litigation to determine if the third prong of
the sequential order test, set forth by this Court in
Carr, is still controlling.
CONCLUSION
AND REQUEST FOR RELIEF
Petitioner seeks review of the proposed
clarifying rules in the extremely limited, narrowly
defined context noted above7 and which could only
occur via court order.
The granting of certiorari would lead to the
elimination of the realistic certainty of needless, time
consuming expensive and protracted litigation (see ft
#4 above) in every U.S. Circuit.
Petitioner respectfully requests that Rehearing
is granted.

6

A §2250 violation must occur in sequential order showing an
offender:
1. Is required to register
2. Travels in interstate commerce and
3. Knowingly fails to update a registration seeking to evade a
State’s reach.
7

Petitioner does not assert or take the position that such a court
order could issue at an initial sentencing or plea agreement for
an adult offender.

7
Dated: February 8, 2021
Respectfully submitted,
s/Daniel C. Willman
Daniel C. Willman
Attorney for Petitioner

CERTIFICATE OF COUNSEL
Per U.S. Supreme Court rule 44 (1), I Daniel C.
Willman, counsel of record for Petitioner, do affirm this
Petition for Rehearing is presented in good faith, not
for delay and is limited to the grounds mandated in
section (2) of the above rule.

Dated: February 8, 2021
Respectfully submitted,
s/Daniel C. Willman
Daniel C. Willman
Attorney for Petitioner

1a
APPENDIX
August 13, 2020
Registration Requirements Under the Sex
Offender Registration and Notification Act A
Proposed Rule by the Justice Department.”
(Commonly know as SORNA).
DEPARTMENT OF JUSTICE
Office of the Attorney General
28 CFR Part 72
[Docket No. OAG 157; AG Order No. 4759–
2020]
RIN 1105–AB52
Registration Requirements Under the
Sex Offender Registration and
Notification Act
AGENCY: Department of Justice.
ACTION: Proposed rule.
FULL TEXT AT: SIXTH CIRCUIT EFC-50 AND
https://www.federalregister.gov/documents/2020/08/1
3/2020-15804/registration-requirements-under-the-se
x-offender-registration-and-notification-act
The rule also makes no change in what registration
jurisdictions need to do to substantially implement
SORNA in their registration programs, a matter that
will continue to be governed by the previously issued
guidelines for SORNA implementation. While this
rule does not make new policy, as discussed above,
it is expected to have a number of benefits. The rule
will facilitate enforcement of SORNA's registration
requirements through prosecution of non-compliant sex
offenders under 18 U.S.C. 2250.
49334 Federal Register / Vol. 85, No. 157 /
Thursday, August 13, 2020 / Proposed Rules.

2a
Section 72.3 also is not premised on any
constitutionally impermissible delegation of legislative
authority to the executive branch of government.
Congress intended that SORNA apply to all sex
offenders, regardless of when they were convicted. See
Reynolds v. United States, 565 U.S. 432, 442-45 (2012);
id. at 448-49 & n. (Scalia, J., dissenting)
49335 Federal Register / Vol. 85, No. 157 / Thursday,
August 13, 2020 / Proposed Rules.
Federal enforcement of SORNA's requirements occurs
primarily through SORNA's criminal provision, 18
U.S.C. 2250. That provision makes it a Federal crime
for a person required to register by SORNA to
knowingly fail to register or update a registration as
required by SORNA under circumstances supporting
Federal jurisdiction, such as conviction of a Federal sex
offense or interstate or foreign travel.
49336-7 Federal Register / Vol. 85, No. 157 /
Thursday, August 13, 2020 / Proposed Rules.
In such a case, it is impossible for the sex offender to
register in that jurisdiction, though subject to a
registration duty under SORNA. This is so because
registration is by its nature a two-party transaction,
involving a sex offender's providing information about
where he resides and other matters as required, and
acceptance of that information by the jurisdiction for
inclusion in the sex offender registry. If the jurisdiction
is unwilling to carry out its side of the transaction,
then the sex offender cannot register.
49336-7 Federal Register / Vol. 85, No. 157 /
Thursday, August 13, 2020 / Proposed Rules.

3a
The procedures by which sex offenders register will
continue to depend on the registration processes of the
jurisdictions that register them, which will not be
made more time-consuming or expensive or
otherwise changed by this rule.
49352 Federal Register / Vol. 85, No. 157 / Thursday,
August 13, 2020 / Proposed Rules.
In terms of benefits, the rule will provide in one place
a clear, concise, and comprehensive statement of sex
offenders' registration requirements under SORNA.
This will reduce any expenditure by sex offenders of
time or money required for inquiry with state or
Federal authorities or others to resolve uncertainties,
or required in attempting to comply with perceived
registration requirements under SORNA that go
beyond the requirements the Attorney General has
actually specified. The clarity provided by this rule will
make it easier for sex offenders to determine what
SORNA requires them to do and thereby facilitate
compliance with SORNA.
49352 Federal Register / Vol. 85, No. 157 / Thursday,
August 13, 2020 / Proposed Rules.
It will resolve specific problems that have arisen in
past litigation or can be expected to arise in future
litigation if not clarified and resolved by this rule,
thereby avoiding the expenditure of litigation
resources on these matters.
49352 Federal Register / Vol. 85, No. 157 / Thursday,
August 13, 2020 / Proposed Rules.

4a
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
M.S. Willman
Plaintiff,
v.

Case No: 19-10360
Honorable
Gershwin A. Drain
Mag. Mona K. Majzoub

United States Office of Attorney General,
Michigan Office of Attorney General,
Michigan Office of Governor, Michigan
Director State Police,
Defendants.
/
Daniel C. Willman (P55867)
Attorney for Plaintiff
P.O. Box 606
Pinckney, MI 48169
248.231.0705
Joseph T. Froehlich (P71887)
Attorney for Defendants Office of
MI Attorney General, Office of the
Governor of MI and Office of the
Director of the State Police
Complex Litigation Division
P.O. Box 30736
Lansing, MI 48909
517.335.3055
STIPULATED ORDER
DISMISSING DEFENDANTS OFFICE OF
MICHIGAN ATTORNEY GENERAL, OFFICE
OF THE GOVERNOR OF MICHIGAN, AND
DIRECTOR OF THE MICHIGAN STATE
POLICE

5a
Plaintiff Mervin Willman and Defendants Office
of Michigan Attorney General, Office of the Governor
of Michigan and Office of the Director of the State
Police (The State Defendants), by counsel, stipulate to
entry of an order dismissing the State Defendants with
prejudice on the following terms:
1.

In light of the Sixth Circuit decision in
Does #1-5 v. Snyder,834 F.3d 696 (6th
Cir. 2016), cert. denied, 138 S. Ct. 55
(2017), and considering the undisputed
facts underlying Plaintiff’s claims, the
parties wish to avoid further
litigation and expense and consent to
entry of this order.

2.

The State Defendants, as well as their
officers, agents, servants, and employees,
shall not enforce the 2006 and 2011
SORA amendments against Plaintiff.

3.

Under the SORA statutes applicable to
Plaintiff, Plaintiff was subject to a 25year registration, and the duration of his
registration has ended. As a result,
Plaintiff shall no longer be subject to any
registration or verification requirements
of SORA.

4.

Plaintiff shall be removed from the SORA
registry within 3 business days from the
date of entry of this order.

5.

If Plaintiff is convicted of a listed Tier I,
II, or III offense [as listed in M.C.L.
§28.722 (r) - (w)] that occurred after July

6a
1, 2011, and that requires registration
under SORA, this judgment does not bar
enforcement against Plaintiff of the 2006
and 2011 amendments to SORA, or any
prior SORA statute.
6.

This Court retains jurisdiction to enforce
this order.

7.

Subject to the terms set forth herein and
pursuant to Fed. R. Civ. P. 41(a)(2),
Plaintiff’s claims against the Defendants
are hereby dismissed with prejudice, and
without fees or costs to any party.

IT IS SO ORDERED
Dated: April 4, 2019
s/Gershwin A. Drain
HON. GERSHWIN A. DRAIN
United States District Court Judge
The parties, through their respective counsel, stipulate
to the entry of the above order.
Daniel C. Willman (P55867)
Attorney for Plaintiff
P.O. Box 606 Pinckney, MI 48169 MI
248.231.0705
Joseph T. Froehlich (P71887)
Assistant Attorney General, Attorney for Defendants Office of
Attorney General, Office of the Governor of MI, and Office of
the Director of the State Police
Complex Litigation Division,
P. O. Box 30736 Lansing, MI 48909
517.335.3055 Dated: April 3, 2019

